TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Toll-Free Telephone Access Exceeded
                         Expectations, but Access for
                   Hearing- and Speech-Impaired Taxpayers
                              Could Be Improved



                                       September 8, 2010

                              Reference Number: 2010-40-108




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


TOLL-FREE TELEPHONE ACCESS                          Answer has increased by 12 percent since
EXCEEDED EXPECTATIONS, BUT                          the 2009 Filing Season. During the
ACCESS FOR HEARING- AND                             2010 Filing Season, 72 million total dialed
SPEECH-IMPAIRED TAXPAYERS                           attempts were made to the IRS toll-free
                                                    telephone Customer Account Services lines.
COULD BE IMPROVED
                                                    Through automation and assistors, the IRS
                                                    answered 37.3 million calls during normal hours
Highlights                                          of operation. The IRS hired more assistors, but
                                                    assistors answered fewer calls during the
Final Report issued on September 8,                 2010 Filing Season than the 2009 Filing Season,
2010                                                and callers waited longer to reach an assistor.
                                                    Assistor Calls Answered decreased by
Highlights of Reference Number: 2010-40-108         14 percent.
to the Internal Revenue Service Commissioner        The Level of Service for the TTY/TDD
for the Wage and Investment Division.               toll-free telephone line for the 2010 Filing
IMPACT ON TAXPAYERS                                 Season was 8.8 percent, the lowest Level of
                                                    Service since the 2003 Filing Season when it
During the 2010 Filing Season, the Internal         was 6.2 percent. The TTY/TDD product line
Revenue Service (IRS) exceeded its key              Level of Service has consistently provided
toll-free telephone assistance performance          the lowest Level of Service among all of the
measurement goals. However, hearing- and            Customer Account Services Enterprise
speech-impaired callers that used the IRS Text      product lines.
Tele-typewriter/Telecommunications Device for
the Deaf (TTY/TDD) telephone line experienced       WHAT TIGTA RECOMMENDED
a low Level of Service and had difficulty           TIGTA recommended that the Commissioner,
reaching an IRS assistor.                           Wage and Investment Division, revise the
WHY TIGTA DID THE AUDIT                             various taxpayer instructions, including notices,
                                                    for calling the IRS to clearly explain that the
Each year, millions of taxpayers contact the IRS    TTY/TDD toll-free telephone number is for
by calling the various toll-free telephone          hearing- and speech-impaired individuals;
assistance lines to seek help in understanding      include in IRS publications the Federal Relay
tax laws and meeting their tax obligations. The     Service web site and toll-free telephone number
objective of this audit was to evaluate the         as a means to communicate with the IRS;
customer service toll-free telephone access         determine the efficiency of the placement of its
during the 2010 Filing Season and evaluate the      TTY/TDD workstations; and revise TeleTax
access and service provided to hearing- and         Topic 102 to include the TTY/TDD hours of
speech-impaired taxpayers.                          operation.
WHAT TIGTA FOUND                                    The IRS agreed with three of our
                                                    recommendations and partially agreed with one
The IRS exceeded its key 2010 Filing                recommendation. It plans to revise taxpayer
Season toll-free telephone assistance               instructions for calling the IRS to explain that the
performance measurement goals. The IRS              TTY/TDD telephone number is for hearing- and
planned to achieve a 73 percent Level of            speech-impaired individuals, analyze the
Service and a 635-second Average Speed of           placement of the TTY/TDD workstation, and
Answer. Instead, it achieved a 75.3 percent         revise the TeleTax Topic 102 to include the
Level of Service and a 580-second Average           hours of operations for the TTY/TDD toll-free
Speed of Answer.                                    telephone line. The IRS plans to assess its
The IRS moved less complex calls to                 communications related to the availability of the
automation, leaving more complex calls for          Federal Relay Service web site and toll-free
assistors to answer. The Average Speed of           number and will make revisions as necessary.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 8, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Toll-Free Telephone Access Exceeded
                             Expectations, but Access for Hearing- and Speech-Impaired Taxpayers
                             Could Be Improved (Audit # 201040017)

 This report presents the results of our review to evaluate the customer service toll-free telephone
 access during the 2010 Filing Season. In addition, we evaluated the access and service
 specifically provided to hearing- and speech-impaired taxpayers. This audit is included in the
 Treasury Inspector General for Tax Administration’s Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenge of Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                     Toll-Free Telephone Access Exceeded Expectations, but Access
                               for Hearing- and Speech-Impaired Taxpayers
                                            Could Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The Internal Revenue Service Exceeded Its Key Filing Season
          Toll-Free Telephone Performance Goals; However, Level of Service
          Remains at Less Than 80 Percent ................................................................. Page 5
          Hearing- and Speech-Impaired Callers Encounter Significant
          Difficulties Reaching the Internal Revenue Service Using the
          Text Tele-Typewriter/Telecommunications Device for the
          Deaf Telephone Line..................................................................................... Page 12
                    Recommendation 1:........................................................ Page 16

                    Recommendations 2 through 4:......................................... Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Joint Operations Center........................................................ Page 21
          Appendix V – Management’s Response to the Draft Report ....................... Page 23
          Toll-Free Telephone Access Exceeded Expectations, but Access
                    for Hearing- and Speech-Impaired Taxpayers
                                 Could Be Improved




                           Abbreviations

AGI                 Adjusted Gross Income
e-file              Electronic Filing; Electronically File
IRS                 Internal Revenue Service
PIN                 Personal Identification Number
TTY/TDD             Text Tele-typewriter/Telecommunications Device for the Deaf
                   Toll-Free Telephone Access Exceeded Expectations, but Access
                             for Hearing- and Speech-Impaired Taxpayers
                                          Could Be Improved




                                            Background

Each year, millions of taxpayers contact the Internal Revenue Service (IRS) by calling the
various toll-free telephone assistance lines to seek help in understanding tax laws and meeting
their tax obligations. Taxpayers called the IRS toll-free telephone assistance lines approximately
72 million1 times during the 2010 Filing Season.2 Of these calls, about 26.2 million were made
to the toll-free telephone number that taxpayers call to ask account or tax law questions
(1-800-829-1040). In addition, about 5.5 million calls were made to the IRS automated TeleTax
system that provides recorded tax law and tax refund information. Figure 1 shows the number of
calls made to the toll-free telephone assistance lines, including about 15.3 million calls answered
by customer service representatives (assistors).
                                 Figure 1: Calls Handled by the IRS
             After
      Hours Automated                                                               Received
     Service (4.1 million)/                                                     Automated Service
      Transfer to Other                                                           (Open Hours)
     Lines (14.3 million)                                                          22.1 million
         18.4 million




        Hung up or Was
      Disconnected Before                                                        Reached
       Receiving Service                                                        an Assistor
          16.2 million                                                          15.3 million
    Source: IRS Enterprise Telephone Data Warehouse.




1
  These calls were made to a suite of 22 telephone lines the IRS refers to as “Customer Account Services Toll-Free”
and include calls made to the TeleTax system. Unless otherwise specified, all references made in this report to the
toll-free telephone system performance data are for Customer Account Services Toll-Free telephone assistance lines
from January 1 through April 17, 2010, and comparable dates in prior years.
2
  The filing season is the period from January through mid-April of each year when most individual tax returns are
filed. All references to the 2010 Filing Season made in this report, unless otherwise specified, are for the period
from January 1 through April 17, 2010.
                                                                                                           Page 1
                  Toll-Free Telephone Access Exceeded Expectations, but Access
                            for Hearing- and Speech-Impaired Taxpayers
                                         Could Be Improved



The toll-free telephone assistance lines are further subdivided into categories called
“applications,” each of which is staffed with a group of assistors who have received specialized
training to assist taxpayers with specific tax issues. Assistors answer taxpayer questions
involving tax law and tax account conditions such as refunds, balance-due billing activity, and
changes to the amount of tax owed. For example, if an individual taxpayer calls to find out
where to mail a tax return, the call would be routed to an assistor who has been trained to handle
IRS procedural issues for individual taxpayers. If a business taxpayer calls to find out the taxes
due on a business account, the call would be routed to an assistor who handles balance-due
questions for business taxpayers. Figure 2 shows the number of calls answered, by product line,
during the 2010 Filing Season.
             Figure 2: Toll-Free Telephone Service Product Lines and
          Number of Assistor Calls Answered During the 2010 Filing Season3

                                                                     Remaining 14 CAS
                                              Rebate Hotline,      Toll-Free Product Lines,
                            Refund Hotline,    334,585 2%                1,231,171 8%
                             847,138 6%                                                                        Individual Income
                                                                                                                  Tax Services,
                    Small Business/Self                                                                          6,234,392 41%
                         Employed
                   Individual Master File
                   Customer Response,
                        954,627 6%



             Refund Call Back,
              2,272,597 15%




                     Business Master File
                                                   Wage & Investment                          Business and Specialty Tax
                     Customer Response,
                                                  Individual Master File                            Services Line,
                         532,244 3%
                                                  Customer Response,                                1,208,373 8%
                                                     1,639,772 11%

        Source: IRS Enterprise Telephone Data Warehouse.

During the 2010 Filing Season, the IRS made available approximately 13,400 assistors to answer
the toll-free telephone lines at 25 call centers located throughout the United States and Puerto
Rico. The Director, Customer Account Services, Wage and Investment Division, manages tax
law and account telephone calls through the Joint Operations Center. Appendix IV explains the


3
 The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                                                   Page 2
                  Toll-Free Telephone Access Exceeded Expectations, but Access
                            for Hearing- and Speech-Impaired Taxpayers
                                         Could Be Improved



role of the Joint Operations Center and how telephone calls are routed to automated services or
an assistor.
The passing of late tax legislation and changes in regulations resulted in the IRS experiencing
unprecedented high call demand the last two filing seasons and fiscal years. The Economic
Stimulus Act of 2008,4 which passed in February 2008, affected toll-free telephone access and
performance measures for both the 2008 Filing Season and Fiscal Year 2008. For the
2009 Filing Season, the IRS experienced increased demand because taxpayers called:
    •   To obtain the amount of their prior year Adjusted Gross Income (AGI). In Fiscal
        Year 2009, the IRS discontinued the use of U.S. Individual Income Tax Declaration for
        an IRS e-file Online Return (Form 8453-OL) for Tax Year 2008. Now, taxpayers
        choosing to electronically prepare and file their tax returns are required to provide their
        prior year AGI and use a self-selected, five-digit Personal Identification Number (PIN) as
        their signature.
    •   To ask economic stimulus payment and Recovery Rebate Credit questions and respond to
        math error notices5 issued by the IRS relating to the Recovery Rebate Credit. The
        Recovery Rebate Credit was available to eligible taxpayers who did not receive an
        economic stimulus payment based upon the Economic Stimulus Act of 2008 or who were
        entitled to an additional payment. In order to determine eligibility for an additional
        payment, taxpayers needed to know the amount of the economic stimulus payment
        received in 2008. Taxpayers called because they did not retain documentation or did not
        remember the amount of their economic stimulus payment. In addition, taxpayers called
        after receiving IRS math error notices relating to the Recovery Rebate Credit. The IRS
        issued math error notices because taxpayers either claimed a Recovery Rebate Credit
        amount that did not match the amount calculated by the IRS or chose to have the IRS
        compute the amount of the Recovery Rebate Credit.
    •   To obtain information on the various tax relief provisions of the American Recovery and
        Reinvestment Act of 2009.6
    As a result, the Customer Service Level of Service was below 80 percent, and the Average
    Speed of Answer increased for both the 2008 and 2009 Filing Seasons and Fiscal Years.




4
  Pub. L. No. 110-185, 122 Stat. 613.
5
  The IRS created three math error notices for Recovery Rebate Credit math errors. Math error notices are issued to
taxpayers when changes to the tax return during processing result in an overpayment or balance due.
6
  Pub. L. No. 111-5, 123 Stat. 115.
                                                                                                            Page 3
                    Toll-Free Telephone Access Exceeded Expectations, but Access
                              for Hearing- and Speech-Impaired Taxpayers
                                           Could Be Improved



The IRS provides a toll-free telephone line (1-800-829-4059) for taxpayers who are
hearing and speech impaired
There are approximately 36 million Americans who have reported some degree of hearing
difficulty ranging from a little trouble hearing to deaf, and 7.5 million Americans who have some
degree of speech impairment.7 The Telecommunications Accessibility Enhancement Act of 1998
requires that individuals with hearing and speech impairments be provided with full access to
Federal Government telecommunications services and facilities.
The IRS provides a toll-free telephone line (1-800-829-4059) to serve hearing- and speech-
impaired taxpayers that require Text Tele-typewriter and Telecommunications Device for the
                    Deaf (TTY/TDD) service. The TTY/TDD device has a keyboard and allows
                    people to type their telephone conversations and read the reply on a display
                    screen. In addition, taxpayers may contact the IRS through the Federal Relay
                    Service.8 This is a Federal Government telecommunications service, which
                    allows the general public to conduct business with the Federal Government
                    and its agencies. Calls are relayed using specially trained communications
                    assistants. The communication assistants act as a transparent conduit for the
transmittal of information.
This review was performed at the Wage and Investment Division Headquarters and Joint
Operations Center in Atlanta, Georgia, during the period January through June 2010. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. The scope of this audit did not include an
evaluation of the quality of toll-free telephone services. The performance data presented were
provided by IRS management information systems. We did not verify the accuracy of these data
because of resource limitations. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




7
    Statistics from the National Institute on Deafness and Other Communication Disorders web site.
8
    The Federal Relay Service is operated by the General Services Administration.
                                                                                                     Page 4
                  Toll-Free Telephone Access Exceeded Expectations, but Access
                            for Hearing- and Speech-Impaired Taxpayers
                                         Could Be Improved




                                     Results of Review

The Internal Revenue Service Exceeded Its Key Filing Season
Toll-Free Telephone Performance Goals; However, Level of Service
Remains at Less Than 80 Percent
The IRS achieved a 75.3 percent Level of Service and 580-second Average Speed of Answer,9
exceeding the 2010 Filing Season performance measurement goals of 73 percent Level of
Service and 635-second Average Speed of Answer. Including automated calls and calls
answered by assistors, the IRS answered 37.3 million calls during normal hours of operation.
The IRS answered 4 million more (22.3 percent) calls during normal hours of operation through
telephone automation during the 2010 Filing Season than in the 2009 Filing Season for the same
period. Assistors answered 14 percent fewer calls than the 2009 Filing Season.
                       Figure 3: Comparison of Performance Measures
                              for the 2007 - 2010 Filing Seasons

              Performance Measures               2007           2008          2009          2010

              Level of Service                  82.5%          77.4%          64.0%        75.3%

              Average Speed of
                                                  249            347           519           580
              Answer (seconds)
              Assistor Calls Answered            14.7           16.1           17.7         15.3
              (millions)

             Source: IRS Enterprise Telephone Data Warehouse.

The IRS moved less complex calls to automation, such as calls related to refunds and prior years’
AGI, leaving the more complex calls for assistors to answer. The IRS also advises taxpayers of
the Estimated Wait Time to speak to an assistor. The IRS has placed an Estimated Wait Time
message on 95 percent of its assistor-staffed applications. By informing callers of expected wait
times, they have the option to wait to speak to an assistor or hang up and call back later. The
Average Speed of Answer has increased by 12 percent since the 2009 Filing Season and
133 percent over the 2007 Filing Season. The last time the IRS achieved a Level of Service
more than 80 percent and an Average Speed of Answer less than 250 seconds was during the

9
 Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor. Average Speed of
Answer is the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
                                                                                                          Page 5
               Toll-Free Telephone Access Exceeded Expectations, but Access
                         for Hearing- and Speech-Impaired Taxpayers
                                      Could Be Improved



2007 Filing Season. The amount of time assistors take to answer taxpayers’ questions (called
Handle Time) has also increased over the past several years. The Average Handle Time for the
2010 Filing Season was 649 seconds, a 13 percent increase over the 2009 Filing Season.
The customer accuracy rates for Account and Tax Law applications have remained high for the
past four filing seasons.
                         Figure 4: Comparison of Accuracy Rates
                            for the 2007 - 2010 Filing Seasons

            Performance Measures             2007           2008   2009        2010

            Accounts                          93%           94%    95%         95%

            Tax Law                           90%           89%    92%         92%

           Source: IRS Centralized Quality Review System.

The IRS adjusted Level of Service goals and developed new initiatives to try to
meet the higher call demand
Over the last two filing seasons, because of new legislation and procedural changes, the IRS
experienced high call demand on its toll-free telephone lines. It worked with consulting firms
and internal business units to help meet this higher demand, improve the overall call experience,
and work paper adjustment inventories. Some of the strategies implemented for the 2010 Filing
Season were:
   •   New Forecasting and Staffing Process – The IRS implemented new workforce
       management software to incorporate the current increase in call demand trends. In an
       effort to increase efficiencies and streamline the forecasting and scheduling process, the
       IRS consolidated the Joint Operations Center and Accounts Management forecasting and
       scheduling operations to eliminate wasteful process steps between the two functions.
   •   Menu Scripting Improvements – In the 2009 and 2010 Customer Satisfaction survey,
       “finding the appropriate menu choice” was the second highest area of dissatisfaction for
       taxpayers who called the IRS toll-free telephone lines and participated in the survey. The
       IRS took several initiatives to clarify unclear script language and streamlined scripts to
       reduce redundancy and wordiness. In addition, the IRS implemented localized recording
       capacity in order to quickly change scripts in response to developing trends.
   •   Telephone and Paper Optimum Resource Allocation Model – Assistors are not
       dedicated solely to answering the toll-free telephone lines. They also work taxpayer
       correspondence, mainly entering adjustments to taxpayer accounts into IRS computer
       systems. One of the consulting firms’ recommendations was to develop and deploy a
                                                                                           Page 6
               Toll-Free Telephone Access Exceeded Expectations, but Access
                         for Hearing- and Speech-Impaired Taxpayers
                                      Could Be Improved



       Telephone and Paper Optimization tool to balance performance between the telephone
       and paper channels. The tool examines the performance and volume levels of both paper
       and telephone, and balances the resources to achieve the best combined performance for
       both channels.
   •   Economic Recovery Payment Telephone and Web-based Self-Service Applications –
       The IRS implemented new initiatives for self-service applications in order to reduce
       telephone demand for services and increase productivity. It deployed the Economic
       Recovery Payment telephone and web-based applications that assisted callers in
       determining whether they received a $250 Economic Recovery Payment from the Social
       Security Administration, Veterans Administration, or Railroad Retirement Board.
   •   Electronic Filing (E-file) PIN Telephone and Web Applications – In Fiscal Year 2009,
       the IRS discontinued the use of U.S. Individual Income Tax Declaration for an IRS e-file
       Online Return (Form 8453-OL) for Tax Year 2008. Now, taxpayers choosing to
       electronically prepare and file their tax returns are required to provide their prior year
       AGI and use a self-selected, five-digit PIN as their signature. In order to reduce calls to
       assistors requesting a prior year’s AGI or prior year PIN, the IRS developed two methods
       for taxpayers to obtain a PIN to e-file their Tax Year 2009 returns.
       º An Automated Interactive Telephone PIN Application (1-866-704-7388). Using
         the telephone keypad, taxpayers entered their Social Security Number, date of birth,
         and Tax Year 2008 filing status. Taxpayers received a PIN for e-filing their
         Tax Year 2009 returns.
       º A Self-Select PIN Application. Using a web-based application on the IRS public
         Internet site, IRS.gov, taxpayers entered their name, address, date of birth, Social
         Security Number, and Tax Year 2008 filing status. A PIN was generated for
         taxpayers to e-file their Tax Year 2009 returns.
At the beginning of January 2010, the IRS determined that more taxpayers than planned
were requesting to talk directly to an assistor to obtain their prior year AGI
The e-file PIN telephone and web applications are both new applications. Early in the filing
season, the IRS determined that many callers using the Automated Interactive Telephone PIN
Application were routing out of the automated telephone application to talk directly with an
assistor. In addition, the success rate for the Self-Select PIN Application was less than
anticipated, and more taxpayers than planned called to ask assistors for their prior years’ AGI or
to obtain a PIN. The IRS took immediate action to meet the demand. The IRS:
   •   Clarified the script for the Automated Telephone PIN Application. Total calls on the
       Automated Telephone PIN Application were 4.2 million. Of these calls, 3.1 million were
       completed, about 600,000 calls were routed to a live assistor, and 500,000 calls were
       abandoned. When the IRS experienced callers opting out of the PIN automated telephone

                                                                                            Page 7
                  Toll-Free Telephone Access Exceeded Expectations, but Access
                            for Hearing- and Speech-Impaired Taxpayers
                                         Could Be Improved



         line because of unclear scripting, it made the necessary changes to the scripting, which
         reduced the number of transfers to assistors.
     •   Deployed new hires and employees from other applications. The IRS used new hires to
         answer AGI, transcript, and Application 4510 related calls which allowed experienced
         assistors to handle more complex account calls. Once call demand decreased, the new
         hires were deployed to correspondence training and eventually will be used to work paper
         adjustments.
Of 13.6 million taxpayers contacting the IRS to obtain an e-file PIN, 12.5 million (92 percent)
attempted to use one of the IRS automated PIN applications. However, the actual success rate
for authentication for the e-file PIN application for the first few weeks of operation was lower
than projected. From January 18 through April 17, 2010, the IRS had approximately 8.3 million
attempts on the e-file PIN Application, but only approximately 4.5 million taxpayers (54 percent)
obtained PINs.
When taxpayers access the Self-Select PIN Application they must enter two additional pieces of
information than they enter using the Telephone PIN Application: their name and address.
Taxpayers were failing to authenticate the address field, resulting in about 1.9 million failed
attempts. In order to improve access to data and be more consistent with the Telephone PIN
Application, the IRS is considering removing the address authentication field for the 2011 Filing
Season. This removal should also increase the completion rate.

The IRS blocked fewer calls and fewer taxpayers abandoned calls (disconnected)
in the 2010 Filing Season
The number of blocked calls decreased 82 percent from the 2009 Filing Season. Compared to
the 2009 Filing Season, primary abandons and secondary abandons decreased by 7 percent and
17 percent, respectively.11 However, primary abandons were 49 percent higher and secondary
abandons were 77 percent12 higher than the 2007 Filing Season, the last time the IRS provided a
Level of Service of more than 80 percent.
Figure 5 shows a comparison of various components (workload indicators) the IRS uses to
manage the Level of Service.


10
   Application 45 is a smaller segment of Application 20, Individual Master File Accounts, and is used to answer
transcript, AGI, and refund inquiries. The assistors working Application 45 received targeted training to allow for
faster deployment of new hires.
11
   A primary abandon may occur, for example, when a taxpayer 1) realizes he or she input the wrong telephone
number and immediately disconnects, 2) disconnects before completing an automated routing script, or 3) chooses a
menu option to use an automated service but disconnects before completing the service. A secondary abandon
occurs when a caller gains access into the queue and then hangs up while waiting in the queue for the next available
assistor.
12
   Percentage may vary slightly due to rounding.
                                                                                                            Page 8
                  Toll-Free Telephone Access Exceeded Expectations, but Access
                            for Hearing- and Speech-Impaired Taxpayers
                                         Could Be Improved



                         Figure 5: Comparison of Toll-Free Telephone
                        Performance Measures and Workload Indicators
                               for the 2007 - 2010 Filing Seasons

                                                                              Filing Season
               Components                                             2007     2008    2009    2010

               Average Speed of Answer (seconds)                        249     347     519     580

               Blocked Calls (millions)

                  Busy Signals                                          0.4      0.3     0.5     0.5

                  Courtesy Disconnects                                  0.4      0.8     4.5     0.4

               Total Blocked Calls13                                    0.8      1.2     5.0     0.9

               Primary Abandons (millions)                              6.7      7.9    10.8    10.0

               Secondary Abandons (millions)                            2.5      3.8     5.3     4.4

               TeleTax Abandons (millions)14                            1.2      1.0     1.4     0.8
               Total Calls Not Answered During Normal
               Hours of Operation (millions)                           11.2    13.8     22.4    16.2
              Source: IRS Enterprise Telephone Data Warehouse.

If the caller decides to hang up and call back at a later time, this is counted as a secondary
abandon call, which reduces the Customer Service Representative Level of Service. IRS
officials stated the increase in abandoned calls can in part be attributed to taxpayers reacting to
informational messages in the menu scripts while they wait to speak to an assistor. For example,
when informational messages advise taxpayers that information is available elsewhere, such as
on IRS.gov, taxpayers may disconnect, deciding to use the Internet instead. The IRS continues
to review its Customer Service Representative Level of Service metric to ensure it accurately
reflects the customer service being provided to taxpayers, including whether these secondary
abandon calls should be removed from the Level of Service calculation.




13
   Due to rounding, the numbers may not always equal the sum of the totals.
14
   Taxpayers may call 1-800-829-4477 to hear prerecorded messages covering various tax topics or to check on the
status of their refund. TeleTax topics, which range from “IRS assistance” to “who must file,” are listed on pages 93
and 94 of the U.S. Individual Income Tax Return (Form 1040) Instruction booklet for Tax Year 2009, available at
IRS.gov. TeleTax abandons also include TeleTax overflows.
                                                                                                            Page 9
                 Toll-Free Telephone Access Exceeded Expectations, but Access
                           for Hearing- and Speech-Impaired Taxpayers
                                        Could Be Improved



The IRS experienced a high number of call attempts during the 2010 Filing
Season
During the 2010 Filing Season, there were 72 million attempts15 to call the Customer Account
Services toll-free telephone product lines. Although the total attempts for the 2010 Filing Season
were down by 5 percent compared to the 2009 Filing Season, total dialed number attempts were
up by 38 percent over the 2007 Filing Season.
The IRS diverted AGI calls to automated telephone and web applications, and residual rebate
call demand was not an issue. In addition, the IRS hired more assistors and deployed business
accounts staff to answer the increase in balance due account calls. Balance due calls are more
complex and take longer to answer, and average handle time increased by 13 percent over the
2009 Filing Season. However, assistors answered fewer calls during the 2010 Filing Season than
during the 2009 Filing Season, and callers waited longer to reach an assistor. Assistor Calls
Answered decreased by 14 percent. Conversely, automated calls answered16 increased by
22 percent.
Figure 6 shows a comparison of toll-free telephone calls answered and unanswered for the 2007
through 2010 Filing Seasons.




15
   The IRS does not calculate demand based on Total Dialed Number Attempts, but incorporates prior year Unique
Dialed Number Attempts into the demand forecast for future calculations.
16
   Total automated completed calls during normal hours of operation.
                                                                                                       Page 10
                 Toll-Free Telephone Access Exceeded Expectations, but Access
                           for Hearing- and Speech-Impaired Taxpayers
                                        Could Be Improved



                 Figure 6: Comparison of Toll-Free Telephone Answered
                                  and Unanswered Calls
                            for the 2007 – 2010 Filing Seasons

                                                                        Filing Season

               Component                                       2007     2008    2009    2010

               Level of Service                               82.5%    77.4%   64.0%    75.3%

               Calls Answered (millions)

                  Assistor Calls Answered                      14.7     16.1    17.7    15.3

                  Automated Calls Answered17                   15.1     16.5    18.1    22.1

               Total Calls Answered18                          29.8     32.6    35.8    37.3

               After Hours and Transfer to Other Lines19       11.3     13.3    17.5    18.4
               Calls Not Answered During
               Normal Hours of Operation                       11.2     13.8    22.4    16.2

               Total Calls                                     52.3     59.7    75.7    72.0
               Source: IRS Enterprise Telephone Data Warehouse.

One of the IRS’ goals for Fiscal Year 2011 is to raise the Level of Service to 75 percent. To
accomplish this, the Fiscal Year 2011 IRS budget request proposes a $20.9 million increase in
funding for the toll-free program to increase Level of Service to 75 percent. While the IRS
achieved a 75.3 percent Level of Service in the 2010 Filing Season which is higher than the
71 percent Fiscal Year goal, the IRS has determined that the $20.9 million budget initiative will
increase the toll-free base program budget to the level needed to respond to projected telephone
calls at a 75 percent Level of Service in Fiscal Year 2011.




17
   Automated Calls Answered excludes after hours automation.
18
   Due to rounding, the numbers may not always equal the sum of the totals.
19
   After Hours/Transfer Out includes Automated Calls completed after hours.
                                                                                                Page 11
                 Toll-Free Telephone Access Exceeded Expectations, but Access
                           for Hearing- and Speech-Impaired Taxpayers
                                        Could Be Improved



Hearing- and Speech-Impaired Callers Encounter Significant
Difficulties Reaching the Internal Revenue Service Using the Text
Tele-Typewriter/Telecommunications Device for the Deaf Telephone
Line
TTY/TDD usage is significantly on the decline, and TTY/TDD devices are becoming obsolete;
many deaf individuals prefer communicating with a video phone. Nevertheless, for taxpayers
who must use or prefer to use a TTY/TDD telephone device, the Level of Service is considerably
lower than that offered to hearing taxpayers. This, in part, could be because so many hearing
individuals call the line mistakenly and hang up or the callers’ device is incompatible with the
IRS’ system.
The Level of Service for the TTY/TDD toll-free telephone line for the 2010 Filing Season was
8.8 percent, the lowest Level of Service since the 2003 Filing Season when it was 6.2 percent.
The Level of Service for the TTY/TDD toll-free telephone line has not exceeded 36.6 percent
since the 2004 Filing Season. The TTY/TDD product line Level of Service has consistently
provided the lowest Level of Service among all of the Customer Account Service Enterprise
product lines. The total dialed attempts during the 2010 Filing Season were more than 350,000;
assistors answered only 339 calls.

The TTY/TDD telephone line has high abandon rates
During the 2010 Filing Season, there were more than 318,000 primary abandons and
452 secondary abandons on the TTY/TDD toll-free telephone product line. Although IRS
officials are unable to determine the exact cause(s) for the extraordinarily high primary
abandons, they cited several probable causes:
     1. The TTY/TDD telephone number is listed on most IRS notices. Individuals may not
        know that the TTY/TDD telephone line is for hearing- and speech-impaired individuals
        and may view this telephone line as an alternate avenue for reaching the IRS.
     2. When calling the TTY/TDD telephone line, one hears a series of rings or beeps. Because
        there is no verbal welcome or dialogue, a hearing individual may think an error in dialing
        was made and hang up and call again.
     3. Calls may also be abandoned because of an incompatibility between the IRS’ TTY/TDD
        system and the IRS’ Automated Call Distributor infrastructure. The TTY/TDD system is
        compatible with Baudot tones,20 which is what most commercial TTY/TDD equipment



20
  Baudot is the default code for TTY devices in the United States. Many TTY devices and modems cannot generate
Dual Tone Multiple Frequency tones after a call is connected, which is a problem when using TTY-adapted
interactive voice response products.
                                                                                                     Page 12
                     Toll-Free Telephone Access Exceeded Expectations, but Access
                               for Hearing- and Speech-Impaired Taxpayers
                                            Could Be Improved



           use. However, all incoming calls to the IRS are routed to assistors through an Automated
           Call Distributor, which recognizes only Dual Tone Multiple Frequency tones.
According to the IRS, not all TTY/TDD telephone devices are equipped to recognize Dual Tone
Multiple Frequency tones. In these cases, the IRS sends the TTY/TDD caller a text message that
states the following:
           Welcome to the Internal Revenue Service. Please dial 8 using your touch tone telephone
           to continue this call. If you are using TTY/TDD software and do not have a touch tone
           phone, please call us back using 800 829 4059,,,,,,8 to connect to an assistor. Go Ahead.
If the caller subsequently hangs up, the call is counted as a primary abandon. The IRS is
negotiating a contract for a new TTY/TDD system but it may be months before an agreement is
reached.
Figure 7 shows a comparison of TTY/TDD telephone line performance for the 2007 through
2010 Filing Seasons.
                Figure 7: Comparison of TTY/TDD Telephone Line Performance
                             for the 2007 – 2010 Filing Seasons

                 Performance Measures21                  2007    2008      2009      2010

                 Level of Service                    14.3%      18.4%     14.4%      8.8%

                 Average Speed of
                                                         161       145     133       136
                 Answer (seconds)

                 Total Dialed Attempts              203,029     312,432   342,655   352,758

                 Assistor Calls Answered                 329       472     479       339

                 Primary Abandons                   165,381     283,090   311,192   318,470

                 Secondary Abandons                      222       292     306       452

                Source: IRS Enterprise Telephone Data Warehouse.

TTY/TDD usage is significantly on the decline
Telecommunications organizations and organizations that provide service and assistance to the
hearing- and speech-impaired communities were interviewed and stated that TTY/TDD usage is

21
     Select categories of calls are shown in Figure 7.
                                                                                              Page 13
                  Toll-Free Telephone Access Exceeded Expectations, but Access
                            for Hearing- and Speech-Impaired Taxpayers
                                         Could Be Improved



significantly on the decline. Further, TTY/TDD devices are becoming obsolete; many deaf
individuals prefer communicating with a video phone. A representative from a speech
communication institute stated that speech-to-speech relay service is also available for
individuals with speech impediments.
The National Exchange Carrier Association prepares reports that trend the growth of various
relay services including TTY/TDD communications and has charted the minutes of these forms
of services from Calendar Years 2002 through 2010.22 The chart maps the actual and projected
minutes used for various relay services and assistive devices.
Figure 8 shows TTY/TDD minutes, labeled as Telecommunications Relay Service, in steady
decline from 3 million minutes in January 2002 to approximately 900,000 minutes in
February 2010. In contrast, Video Relay Service has increased since May 2003 from zero
minutes to 8 million minutes in February 2010. Projected minutes for Telecommunications
Relay Service shows the minutes holding steady at less than 1 million, and Video Relay Service
minutes are projected to increase to about 11 million minutes by mid-Calendar Year 2010.
Although TTY/TDD devices are still used, interactive and Internet-based technology have
quickly replaced them as a way for hearing- and speech-impaired individuals to communicate.




22
  The National Exchange Carrier Association is a non-profit organization created in 1984 by telecommunications
companies to administer the fees that long distance companies pay to access local telephone networks. The
interstate Telecommunications Relay Service Fund, established by the Federal Communications Commission on
July 26, 1993, helps speech- and hearing-impaired individuals use telecom services. Today, the fund reimburses
relay service providers for completed interstate traditional Telecommunications Relay Service and speech-to-speech
minutes of use and for all completed Internet protocol relay service and Video Relay Service minutes of use. The
National Exchange Carrier Association was appointed fund administrator by the Federal Communications
Commission in 1993 for 2 years and has been reappointed to manage the fund.
                                                                                                         Page 14
                 Toll-Free Telephone Access Exceeded Expectations, but Access
                           for Hearing- and Speech-Impaired Taxpayers
                                        Could Be Improved



                                    Figure 8: Relay Services
                                 January 2002 – February 2010
                                Projection May 2010 – June 2010




           Source: National Exchange Carrier Association. TRS=Telecommunications Relay Service;
           IP=Internet Protocol; VRS=Video Relay Service; CTS=CapTel Service; IPCTS= Internet Protocol
           Captioning Telephone Service.

The IRS did not implement all recommendations from a prior Treasury Inspector
General for Tax Administration report
During the Fiscal Year 2003 review23 of the TTY/TDD access to toll-free telephone services, we
made eight recommendations to improve access to toll-free telephone services for hearing- and
speech-impaired callers. The IRS agreed with four recommendations, but disagreed with four
and took corrective action on only three recommendations. The following four
recommendations for which the IRS did not take corrective actions remain relevant and would
improve the Level of Service and save resources.
     1. Revising the various taxpayer instructions for calling the IRS to clearly explain that the
        TTY/TDD telephone number is for hearing- and speech-impaired taxpayers only and that
        it requires special equipment to receive service on this telephone line.



23
  The Internal Revenue Service Has Opportunities to Provide Hearing- and Speech-Impaired Taxpayers With
Easier Access to Toll-Free Telephone Services (Reference Number 2003-30-111, dated May 30, 2003).
                                                                                                    Page 15
               Toll-Free Telephone Access Exceeded Expectations, but Access
                         for Hearing- and Speech-Impaired Taxpayers
                                      Could Be Improved



   2. Including the TTY/TDD telephone number on account notices and letters sent to
      taxpayers and clearly indicating that it is for hearing- and speech-impaired taxpayers
      only.
       The TTY/TDD toll-free telephone line experiences extremely high primary abandon rates
       which is most likely caused by hearing callers not knowing what TTY/TDD means when
       they see it in print and dialing the number in an attempt to reach the IRS. The IRS agreed
       that is one of three probable causes for the abandoned calls. In addition, the IRS added
       that because the TTY/TDD toll-free telephone number is also printed on notices, hearing
       callers might view the number as an alternate way to contact the IRS.
   3. Increasing the capacity of the TTY/TDD telephone line to provide one-stop service by
      moving the TTY/TDD equipment from Atlanta, Georgia, to a site with assistors who are
      trained to handle both tax law and account calls. The Atlanta, Georgia, TTY/TDD
      workstation is available only one hour during normal hours of operation. In addition,
      productivity is low because the workstation answers only about one to two calls during
      the peak season and only answers individual account calls.
   4. Revising TeleTax Topic 102 to announce the correct hours of operation for the
      TTY/TDD service. The TeleTax Topic 102 can be accessed by toll-free telephone or
      IRS.gov. Neither of these listed the hours of operation for the TTY/TDD toll-free
      telephone number.
Current research shows that TTY/TDD usage is on the decline and other assistive technology has
become available to the hearing- and speech-impaired community. The Federal Relay Service
provides newer assistive communication technology for hearing- and speech-impaired
individuals that includes Video Relay Service, American Standard Code Information
Interchange, and speech-to-speech relay services. Hearing- and speech-impaired individuals can
also access services through the Federal Relay Service for TTY/TDD services.
IRS officials stated that taxpayers have the option and are using the Federal Relay Service to
contact IRS assistors. Further, they stated that the IRS continues to research other methods for
hearing- and speech-impaired individuals to contact the IRS. The IRS is currently using an
internal research project to analyze and test assistive telecommunication technology. Test results
will allow the IRS to determine if the technologies can be used externally for taxpayers to
contact the IRS.

Recommendations
The Commissioner, Wage and Investment Division, should
Recommendation 1: Revise the various taxpayer instructions for calling the IRS, including
notices, to clearly explain that the TTY/TDD telephone number is for hearing- and
speech-impaired individuals.

                                                                                          Page 16
               Toll-Free Telephone Access Exceeded Expectations, but Access
                         for Hearing- and Speech-Impaired Taxpayers
                                      Could Be Improved



       Management’s Response: The IRS agreed with this recommendation. It plans to
       revise taxpayer instructions for calling the IRS to explain that the TTY/TDD telephone
       number is for hearing- and speech-impaired individuals.
Recommendation 2: Revise the various taxpayer publications and IRS webpages to include
the Federal Relay Service web site and toll-free telephone number as a means to communicate
with the IRS.
       Management’s Response: The IRS partially agreed with this recommendation. It
       did not agree to revise taxpayer publications and IRS webpages at this time. However, it
       agreed to assess IRS communications related to the availability of the Federal Relay
       Service web site and toll-free number, and plans to make revisions to taxpayer
       publications and IRS webpages, if warranted, based on the results of the assessment.
Recommendation 3: Determine whether it would be more efficient to move the
Atlanta, Georgia, workstation to Indianapolis, Indiana, or Dallas, Texas, where the majority of
the TTY/TDD telephone calls are received and have the two sites serve as each other’s backup.
       Management’s Response: The IRS agreed with this recommendation and plans to
       perform an analysis with regard to the necessary resources and costs. It plans to move
       the TTY/TDD workstation located in Atlanta, Georgia, to a more advantageous site, if
       practical based on its analysis.
Recommendation 4: Revise the TeleTax Topic 102 to include the hours of operations for the
TTY/TDD toll-free telephone line.
       Management’s Response: The IRS agreed with this recommendation and plans to
       revise the TeleTax Topic 102 to include the hours of operations for the TTY/TDD
       toll-free telephone line.




                                                                                         Page 17
                  Toll-Free Telephone Access Exceeded Expectations, but Access
                            for Hearing- and Speech-Impaired Taxpayers
                                         Could Be Improved



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the customer service toll-free telephone
access during the 2010 Filing Season.1 In addition, we evaluated the access and service
specifically provided to hearing- and speech-impaired taxpayers. To accomplish this objective,
we:
I.      Evaluated the IRS’ preparation for the toll-free telephone operations for the 2010 Filing
        Season, including followup to recommendations made in a prior Treasury Inspector
        General for Tax Administration review.2
II.     Determined whether the IRS implemented any new operational processes to improve
        taxpayer access to the toll-free telephone system for the 2010 Filing System.
III.    Determined the process used to monitor call volumes and applications that could affect
        Level of Service.
IV.     Determined whether the 2010 Filing Season performance measures, goals, and indicator
        targets for the toll-free telephone operations were achieved.
V.      Determined why the TTY/TDD product line had low Level of Service.
VI.     Determined whether corrective actions to the Treasury Inspector General for Tax
        Administration Fiscal Year 2003 TTY/TDD report the IRS disagreed with were still
        appropriate.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Account Management policies,
procedures, and practices for the toll-free telephone operation. We evaluated controls by
interviewing management and reviewing policies, reports, and procedures.




1
 The filing season is the period from January through mid-April when most individual income tax returns are filed.
2
 The Internal Revenue Service Has Opportunities to Provide Hearing- and Speech-Impaired Taxpayers With Easier
Access to Toll-Free Telephone Services (Reference Number 2003-30-111, dated May 30, 2003).
                                                                                                         Page 18
              Toll-Free Telephone Access Exceeded Expectations, but Access
                        for Hearing- and Speech-Impaired Taxpayers
                                     Could Be Improved



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
M. Jean Bell, Lead Auditor
Pamela DeSimone, Senior Auditor
Patricia A. Jackson, Senior Auditor




                                                                                    Page 19
              Toll-Free Telephone Access Exceeded Expectations, but Access
                        for Hearing- and Speech-Impaired Taxpayers
                                     Could Be Improved



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Financial Officer OS:CFO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief, Performance Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 20
                  Toll-Free Telephone Access Exceeded Expectations, but Access
                            for Hearing- and Speech-Impaired Taxpayers
                                         Could Be Improved



                                                                                                Appendix IV

                                Joint Operations Center

The Joint Operations Center serves as the central control organization for all of the IRS’ toll-free
telephone call routing. It uses intelligent call management software to control and route calls to
call centers and assistors who have the skills and are available to answer the calls. In addition, it
monitors the call centers for abnormally high queue (wait) times and/or the number of assistors
who are idle or available to answer calls. When this occurs, actions are taken to modify routing
scripts and to balance workload and associated staffing.
The Joint Operations Center has the ability to trace one call from the time it is received to the
time the call is terminated but does not do so because of the large volume of calls received. The
IRS does, however, monitor key segments in the life of a call. For example, the IRS monitors
the call from the time it was answered by a screener to when it was transferred to an assistor or
from the time it was answered by an assistor to the time the taxpayer was transferred or the call
ended. The IRS believes that this provides indications of the type(s) of service the average
taxpayer receives.
Taxpayers who call the IRS can receive automated services or choose to speak to a customer
service representative (assistor). For taxpayers using a touchtone telephone, the automated
services Telephone Routing Interactive System uses recorded information and interactive
applications that provide automated tax refund status information, permit taxpayers to obtain a
payoff amount for an outstanding balance due, or enable taxpayers to set up an installment
agreement to settle a delinquent tax debt. For example, when a taxpayer calls 1-800-829-1040
with a tax law or account question, he or she is provided, in English or Spanish, four touchtone
automated main menu options with secondary options.
1. Requesting information on the new tax legislation for Tax Year 2009. This option transfers
   the caller to the American Recovery and Reinvestment Act of 20091 information line at
   1-866-234-2942 to a second automated menu that provides information regarding provisions
   that affect 2009 Federal taxes.2 The caller can choose from the following options: a) the
   caller is inquiring about the Making Work Pay tax credit; or for information on Economic
   Recovery Payments for Social Security Administration, Veteran’s Affairs, or Railroad
   Retirement recipients; or the credit for certain State or Federal pension recipients;
   b) information about changes to the taxability of unemployment compensation or the First-

1
 Pub. L. No. 111-5, 123 Stat. 115.
2
 For the 2010 Filing Season, the 1-866-234-2942 line was revised to provide information about the American
Recovery and Reinvestment Act of 2009 tax law legislation that affects 2009 tax returns. The filing season is the
period from January through mid-April when most individual income tax returns are filed.
                                                                                                          Page 21
                   Toll-Free Telephone Access Exceeded Expectations, but Access
                             for Hearing- and Speech-Impaired Taxpayers
                                          Could Be Improved



    Time Homebuyer Credit; c) information about the Higher Education Tax Credit (also known
    as the American Opportunity Tax Credit which modifies the former Hope Credit);
    d) information about the sales tax deduction for new vehicle purchases, the extended credits
    for energy-efficient improvements to existing homes, or the tax credits for installing
    residential alternative energy equipment on new and existing homes; or e) an option if the
    caller has not heard their topic.
2. Requesting information on a tax refund. An automated message advises to please visit
   IRS.gov for the latest information on the refund status or to call the Refund Hotline at
   1-800-829-1954. The call is then disconnected.
3. General Tax Law Questions Menu. This option provides the taxpayer with an automated
   menu from which to choose the following options: a) information on obtaining a prior year
   AGI or e-file PIN; b) questions about tax rules or filling out forms; c) questions about a form
   already submitted, tax history, or payment; or d) options to repeat this menu or return to the
   previous menu.
4. Preparing or filing individual income tax returns or tax-related rules and regulations. This
   option from the General Tax Law Menu provides the taxpayer with an automated menu from
   which to choose the following options: a) to order a blank form or publication; b) to get the
   mailing address for tax returns or payments; c) if you did not receive a Wage and Tax
   Statement (Form W-2) or a Form 1099 series3 information return; d) for general tax questions
   including filing a return or tax rules and regulations; or e) options to repeat this menu or
   return to the previous menu.
5. Using the Business and Specialty Tax line or obtaining the address for the IRS Internet web
   site.
6. Repeating the above options.
If the caller does not select an option or is calling from a rotary telephone and is unable to select
a touchtone option, the same script is repeated providing voice response options. If the caller
selects an invalid option, he or she is transferred to an IRS employee (screener) who screens and
transfers the call to the appropriate assistor to answer the caller’s question. Assistors are trained
and certified on specific applications for each current filing season.4




3
  The 1099 series of information returns includes forms such as Interest Income (Form 1099-INT), Dividends and
Distributions (Form 1099-DIV), and Miscellaneous Income (Form 1099-MISC).
4
  The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors who have received specialized training to help taxpayers with specific tax issues.
                                                                                                               Page 22
   Toll-Free Telephone Access Exceeded Expectations, but Access
             for Hearing- and Speech-Impaired Taxpayers
                          Could Be Improved



                                                   Appendix V

Management’s Response to the Draft Report




                                                          Page 23
Toll-Free Telephone Access Exceeded Expectations, but Access
          for Hearing- and Speech-Impaired Taxpayers
                       Could Be Improved




                                                       Page 24
Toll-Free Telephone Access Exceeded Expectations, but Access
          for Hearing- and Speech-Impaired Taxpayers
                       Could Be Improved




                                                       Page 25
Toll-Free Telephone Access Exceeded Expectations, but Access
          for Hearing- and Speech-Impaired Taxpayers
                       Could Be Improved




                                                       Page 26
